2311 Douglas Street CC \CKLE s E-Mail Address:

Omaha, Nebraska 68102-1214 Est, 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No.

SANFORD A. MOHR and TINA A. MOHR,
Individually and as Co-Trustees of their
October 15, 1996 unrecorded Revocable Trust, .
Petitioners,
vs.
MLB, SUB I, LLC,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4581 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 8th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

een Keme 0 thao Qntiaw bh Ohl

My Comm. Exp. September 5, 2023,
Affiant 41351

 

Notary Public
